<html>
<title> - IMPROVING AND REFORMING OUR NATION'S SURFACE TRANSPORTATION PROGRAMS: OKLAHOMA CITY, OKLAHOMA, FIELD HEARING WITH ADDITIONAL SUBMISSIONS FROM A JOINT SENATE AND HOUSE FIELD HEARING AND NINE LISTENING SESSIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   IMPROVING AND REFORMING OUR NATION'S 
                    SURFACE TRANSPORTATION PROGRAMS: 
                 OKLAHOMA CITY, OKLAHOMA, FIELD HEARING 
                WITH ADDITIONAL SUBMISSIONS FROM A JOINT 
                   SENATE AND HOUSE FIELD HEARING AND 
                        NINE LISTENING SESSIONS 

=======================================================================

                                (112-9)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           FEBRUARY 24, 2011

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure






















      IMPROVING AND REFORMING OUR NATION'S SURFACE TRANSPORTATION

    PROGRAMS: OKLAHOMA CITY, OKLAHOMA, FIELD HEARING WITH ADDITIONAL

      SUBMISSIONS FROM A JOINT SENATE AND HOUSE FIELD HEARING AND

                        NINE LISTENING SESSIONS
























                  IMPROVING AND REFORMING OUR NATION'S
                    SURFACE TRANSPORTATION PROGRAMS:
                 OKLAHOMA CITY, OKLAHOMA, FIELD HEARING
                WITH ADDITIONAL SUBMISSIONS FROM A JOINT
                   SENATE AND HOUSE FIELD HEARING AND
                        NINE LISTENING SESSIONS

=======================================================================

                                (112-9)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


               Available online at: http://www.fdsys.gov/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-737 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
TOM REED, New York                   MICHAEL E. CAPUANO, Massachusetts
ANDY HARRIS, Maryland                TIMOTHY H. BISHOP, New York
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    RUSS CARNAHAN, Missouri
FRANK C. GUINTA, New Hampshire       GRACE F. NAPOLITANO, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
LOU BARLETTA, Pennsylvania           MAZIE K. HIRONO, Hawaii
CHIP CRAVAACK, Minnesota             JASON ALTMIRE, Pennsylvania
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               HEATH SHULER, North Carolina
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      LAURA RICHARDSON, California
PATRICK MEEHAN, Pennsylvania         ALBIO SIRES, New Jersey
RICHARD L. HANNA, New York           DONNA F. EDWARDS, Maryland
STEPHEN LEE FINCHER, Tennessee
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma

                                  (ii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................  viii

                               TESTIMONY

Duit, James A., President, Duit Construction Company, Inc........    12
Fallin, Hon. Mary, Governor, State of Oklahoma...................     5
Hietpas, Jerry, President, Action Safety Supply Company..........    12
Lemon, Larry, Chairman, Haskell Lemon Construction Company.......    12
McCaleb, Neal A., President, Transportation Revenues Used 
  Strictly for Transportation (TRUST), Indian Reservation Roads 
  (IRR) in Non-Reservation States................................    12
Ridley, Hon. Gary, Secretary of Transportation, State of Oklahoma    12

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Duit, James A....................................................    32
Fallin, Hon. Mary................................................    45
Hietpas, Jerry...................................................    50
Lemon, Larry.....................................................    53
McCaleb, Neal A..................................................    58
Ridley, Hon. Gary................................................    61

                       SUBMISSIONS FOR THE RECORD

Anoatubby, Hon. Bill, Governor, The Chickasaw Nation, testimony 
  for the record.................................................    76
Geary, B.A., resident of Tulsa, OK, testimony for the record.....    78
Kessler, Edwin, resident of Norman, OK, testimony for the record.    81
Oklahoma Bicycling Coalition:
  Cash, Mary Ann, LAB LCI #1327, Cooper's Bicycle Center, written 
    statement....................................................    97
  Mussett, Dr. Kevin, Legislative Chairman and Past President, 
    written statement............................................   101
Wathne, Leif G., P.E., Vice President--Highways and Federal 
  Affairs, American Concrete Pavement Association, testimony for 
  the record.....................................................   105
Wilburn, Linda, mother of truck crash victim, testimony for the 
  record.........................................................   110
                              ----------                              

TESTIMONY FOR THE RECORD FROM JOINT FIELD HEARING, SENATE COMMITTEE ON 
ENVIRONMENT AND PUBLIC WORKS AND HOUSE COMMITTEE ON TRANSPORTATION AND 
    INFRASTRUCTURE, LOS ANGELES, CA, AND NATIONAL LISTENING SESSIONS

During February and March 2011, the Committee on Transportation 
  and Infrastructure held a national series of field hearings and 
  listening sessions to gather information from State and local 
  officials and stakeholders on pending major surface 
  transportation legislation. Testimony from the joint Senate and 
  House field hearing held in Los Angeles, CA, as well as 
  testimony from the listening sessions, which did not have a 
  record, is included in this hearing.

Los Angeles, CA, Joint Field Hearing, Senate Committee on 
  Environment and Public Works and House Committee on 
  Transportation and Infrastructure, Improving and Reforming Our 
  Nation's Surface Transportation Programs to Support Job 
  Creation and the Economy, February 23, 2011:

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Czyzyk, Joseph A., Chairman of the Board, Los Angeles Area 
  Chamber of Commerce, and CEO, Mercury Air Group, Inc...........   114
Heminger, Steve, Executive Director, Metropolitan Transportation 
  Commission, San Francisco Bay Area.............................   116
Hunter, Robbie, Council Representative, Los Angeles/Orange County 
  Building Trades Council........................................   121
Kempton, Will, Chief Executive Officer, Orange County 
  Transportation Authority.......................................   123
Knabe, Hon. Don, Chairman, Los Angeles County Metropolitan 
  Transportation Authority.......................................   133
Mayer, Anne, Executive Director, Riverside County Transportation 
  Commission.....................................................   137
McKim, Cindy, Director, California Department of Transportation..   141
Phillips, Kathryn, Director, California Transportation and Air 
  Initiative, Environmental Defense Fund.........................   146
Villaraigosa, Hon. Antonio R., Mayor, city of Los Angeles........   155

                       SUBMISSIONS FOR THE RECORD

Blackwell, Angela Glover, Founder and CEO, PolicyLink; Henderson, 
  Wade, President and CEO, The Leadership Conference on Civil and 
  Human Rights; Porchas, Francisca, Lead Organizer, Labor/
  Community Strategy Center and Bus Riders Union; Saenz, Thomas 
  A., President and General Counsel, Mexican American Legal 
  Defense and Educational Fund (MALDEF); Walton, Gloria, 
  Executive Director, Strategic Concepts in Organizing & Policy 
  Education (S.C.O.P.E.); Wang, Karin, Vice President of Programs 
  and Communications, Asian Pacific American Legal Center, a 
  member of Asian American Center for Advancing Justice; 
  statement for the record.......................................   160
                              ----------                              
Indianapolis, IN, Listening Session, February 19, 2011, Testimony 
  for the Record:
Altman, Christine, President, Central Indiana Regional 
  Transportation Authority, Hamilton County Commissioner.........   168
Hoosier Heartland Industrial Corridor, Inc.......................   170
Irwin, Kim, Executive Director, Health by Design.................   173
Kahl, Charles V., President, Indiana Construction Association....   174
Kitchin, Vicki, Executive Director, Build Indiana Council........   176
Lochmueller, Keith, Chairman of the Board and Chief Executive 
  Officer, Bernardin, Lochmueller & Associates, Inc..............   178
O'Loughlin, Michael and Susan, residents of Indianapolis, IN.....   189
Pfisterer, Marilyn, Councillor, District 14, city of Indianapolis 
  and Marion County..............................................   191
Stephens, Jeff, Executive Director, Consider Biking..............   192
Terry, Michael A., President and CEO, Indianapolis Public 
  Transportation Corporation (IndyGo)............................   199
                              ----------                              
Dupage, IL, Listening Session, February 20, 2011, Testimony for 
  the Record:
Barsotti, Ed, Executive Director, League of Illinois Bicyclists..   202
Blankenhorn, Randall S., Executive Director, Chicago Metropolitan 
  Agency for Planning............................................   203
Brown, Kate, Truck Safety Coalition, mother of truck crash 
  survivor.......................................................   208
Campbell, Craig, Vice-President of Environment and Government 
  Affairs, Lafarge Cement Division; Master, Debbie, Vice-
  President of Manufacturing, Lafarge Gypsum Division............   212
Clifford, Alexander D., Executive Director/CEO, Metra............   214
Commercial Vehicle Training Association, Inc.....................   217
Cullerton, Thomas, Village President, Village of Villa Park......   221
Darch, Karen, President, Village of Barrington, IL and Co-Chair 
  of TRAC........................................................   223
Darch, Karen, President, Village of Barrington, IL and Co-Chair 
  of TRAC; Weisner, Hon. Tom, Mayor, city of Aurora, and Co-Chair 
  of TRAC........................................................   227
Freemire, Hon. Mike, Commission Chair, Bi-State Regional 
  Commission, and Mayor, city of Bettendorf; Welvaert, Hon. Don, 
  Chair, Transportation Policy Committee, Bi-State Regional 
  Commission, and Mayor, city of Moline..........................   235
Greuling, John, President and CEO, Will County Center for 
  Economic Development...........................................   239
Hannig, Gary, Secretary, Illinois Department of Transportation...   241
Klaas, Fran, Kendall County engineer.............................   257
Kliewer, Laura, Director, Midwest Interstate Passenger Rail 
  Commission.....................................................   258
Michels, P. Sean, Village President, Village of Sugar Grove......   260
Midwest Bus Corporation in conjunction with David Hillock of 
  Transit Associates.............................................   267
Raff, Brian, Marketing Director, National Steel Bridge Alliance..   268
Schoedel, Carl, P.E., Director of Transportation/County Engineer, 
  Kane County Division of Transportation.........................   271
Skosey, Peter, Vice President, Metropolitan Planning Council.....   276
United Transportation Union......................................   278
                              ----------                              
Vancouver, WA, Listening Session, February 21, 2011, Testimony 
  for the Record:
Adams, Hon. Sam, Mayor, city of Portland.........................   280
Bricker, Scott, Director, Portland Office, America Walks.........   283
Brokaw, Wayne, Executive Director, Inland Northwest Associated 
  General Contractors of America.................................   287
Brown, Chandra, Vice President, Oregon Iron Works, Inc., and 
  President, United Streetcar, LLC...............................   289
Dean, Robert, President, Dean Surveying, Inc.....................   291
Dolgonas, Richard J., resident of Roseburg, OR...................   295
Douglas County Global Warming Coalition..........................   300
Edgar, Paul, ``Are There Better Options and Alternatives Than 
  Replacing the I-5 Bridges?''...................................   302
Girard, Chris, President and CEO, Plaid Pantry Convenience Stores   306
Harvey, Stephen H., Director, Cowlitz-Wahkiakum Council of 
  Governments....................................................   308
Hubbard, David S., Vice President, Legislative Affairs, Portland 
  Cement Association.............................................   310
Hughes, Tom, Council President, Oregon Metro Council.............   312
Jackson, Jeffrey A., bicyclist and walker........................   315
Kloos, Jeanette B., President, Friends of the Historic Columbia 
  River Highway..................................................   316
Lavelle, Jenn, Field Associate, OSPIRG (Oregon State Public 
  Interest Research Group).......................................   318
Lee, Timothy, Lakeside Industries, Inc...........................   321
Statement regarding North Spokane Corridor.......................   325
Parker, Terry, resident..........................................   327
Spokane Regional Transportation Council..........................   328
Vine, Loren T., Member, All Aboard Washington and the National 
  Association of Rail Passengers.................................   331
Wagner, Don, Washington Director for the Columbia River Crossing 
  Project........................................................   335
Winiecki, Tad, Higherway Transport Research......................   337
                              ----------                              
Fresno, CA, Listening Session, February 22, 2011, Testimony for 
  the Record:
California League of Food Processors.............................   344
Cohen, Laura, Western Regional Director, Rails-to-Trails 
  Conservancy....................................................   346
Fresno Works:
  Anderson, Susan B., Co-Chair, and Fresno County Supervisor; and 
    Perea, Henry R., Co-Chair, and Fresno County Supervisor......   348
  Perea, Henry R., Co-Chair, and Fresno County Supervisor........   349
Hanson, Matt, President, Professional Engineers in California 
  Government.....................................................   352
                              ----------                              
Jonesboro, AR, Listening Session, February 24, 2011, Testimony 
  for the Record:
Broadaway, Sally, President, Northeast Arkansas Bicycle Coalition   358
Caulk, Robert, Chairman, Fayetteville Natural Heritage 
  Association....................................................   360
Evans, Steven R., Director, United Transportation Union..........   367
Griffin, Robert, Independence County Judge.......................   380
Jonesboro Regional Chamber of Commerce:
  Cameron, Mike..................................................   382
  Owens, Ben, Chairman, Transportation Committee.................   433
Laggan, Charles, Vice President and General Manager, Arkansas 
  Midland Railroad Co., Inc., Prescott and Northwestern Railroad 
  Co., Warren & Saline River Railroad Co., Railroad Distribution 
  Services, Inc., Pinsly Railroad Companies......................   434
Marzewski, Jane, resident of Jonesboro, AR.......................   437
Perrin, Hon. Harold, Mayor, city of Jonesboro....................   438
Projects including pedestrian and bicycle facilities; landscaping 
  and scenic beautification; rehabilitation and operation of 
  historic transportation buildings, structures or facilities; 
  scenic or historic highway programs including tourist and 
  welcome centers, etc...........................................   447
Woltjen, Duane W., resident of Fayetteville, AR..................   464
                              ----------                              
Cortland, NY, Listening Session, March 24, 2011, Testimony for 
  the Record:
Klemm, Bill and Cindy, small business owner operators and OOIDA 
  members........................................................   468
Morrison, Karen, P.E., Vice President, Transportation & Technical 
  Services, Associated General Contractors of New York State, LLC   471
Pizzola, Frances A., Access to Independence of Cortland County, 
  Inc............................................................   472
Reinemann, Teri, Finger Lakes Independence Center................   474
Roberts, Larry, resident of Tompkins County......................   475
Shumaker, Linda, President, Shumaker Consulting Engineering & 
  Land Surveying, P.C., on behalf of American Council of 
  Engineering Companies..........................................   476
Suits, Frank, Jr., President & CEO, Suit-Kote Corporation........   480
Transportation Advocacy Group (TAG)..............................   482
                              ----------                              
Rochester, NY, Listening Session, March 24, 2011, Testimony for 
  the Record:
Aesch, Mark, Chief Executive Officer, Rochester Genesee Regional 
  Transportation Authority.......................................   488
New York State Transportation Equity Alliance....................   494
Rice, Terrence J., P.E., Director, Monroe County Department of 
  Transportation.................................................   496
Wright, William C., Ontario County Commissioner of Public Works; 
  Vice President, New York State County Highway Superintendent 
  Association; and Member, New York Chapter American Public Works 
  Association....................................................   497
                              ----------                              
Philadelphia, PA, Listening Session, March 25, 2011, Testimony 
  for the Record:
Campbell Soup Company............................................   502
McKenna Long & Aldridge LLP Attorneys at Law.....................   504
Meddin, Russell, Bike Share Philadelphia.........................   506
Pennsylvania Transportation Center for Digital Technology 
  Innovation & Deployment, a partnership of Carnegie Mellon 
  University and the University of Pennsylvania..................   507
                              ----------                              
Scranton, PA, Listening Session, March 25, 2011, Testimony for 
  the Record:
Pietrucha, Dr. Martin T., P.E., F.ASCE, F.ITE, Director, The 
  Thomas D. Larson Pennsylvania Transportation Institute, and 
  Professor of Civil Engineering, Pennsylvania State University..   510
Williams, Keith, Community Organizer, Northeast Center for 
  Independent Living.............................................   511

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                      IMPROVING AND REFORMING OUR
                    NATION'S SURFACE TRANSPORTATION
                   PROGRAMS: OKLAHOMA CITY, OKLAHOMA,
                     FIELD HEARING WITH ADDITIONAL
                    SUBMISSIONS FROM A JOINT SENATE
                    AND HOUSE FIELD HEARING AND NINE
                           LISTENING SESSIONS

                              ----------                              


                      Thursday, February 24, 2011

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 9:00 a.m., in Union 
Rooms 1 and 2, Oklahoma City Community College, 7777 South May 
Avenue, Oklahoma City, Oklahoma, Hon. John L. Mica [chairman of 
the committee] presiding.
    Mr. Mica. Good morning. I'm Congressman John Mica. I chair 
the House Transportation and Infrastructure Committee, and I'd 
like to call this meeting of the committee to order.
    This today is a field hearing and public input session 
regarding provisions that will be included in a new Federal 
transportation legislation and reauthorization.
    I'm delighted to be here today at the invitation of your 
Congressman, Mr. Lankford, the gentleman from Oklahoma, in his 
district. And also, let me explain, first of all, what we're 
doing and then the order of business before the committee 
today.
    As you know, everyone here I think knows that Congress must 
adopt a long-term authorization, which sets forth all of the 
Federal policy, the projects and the financing formulas for all 
of the transportation, major transportation countries for the 
Nation, in legislation.
    The current legislation that we are working under expired, 
actually, in September of 2009, we're on the sixth extension, 
Congress must extend the law in order to authorize the programs 
and even the existence of department--Federal Department of 
Transportation.
    We are going to, next week, when we return pass the seventh 
extension, and I hope that will be the last extension. That 
extension will go through the 30th of September of this year. I 
would rather have a shorter term extension, but because of the 
requirement, and the needs of the local and State government to 
have some definition as to what the Federal Government's 
partnership, funding, arrangement and rules of the game, so to 
speak, will be in place, and we have to do something for some 
definite period of time, rather than these short pickup kinds 
of extensions that have taken place today. So that will take us 
through the fiscal year, and it's my hope that when we finish 
these hearings and field listening sessions, that we can return 
to Congress.
    Now, what you're seeing here today is part of a national 
listening and hearing session. We started after votes last 
Saturday morning, which ended at 4:30 in the morning, flew to 
Columbus, Ohio, the State capital there, began these sessions. 
We've been in Indianapolis, we've been in Chicago, flew to 
Portland and Vancouver, Washington, Fresno, Los Angeles, here 
today, tonight we'll be in Jonesboro, Arkansas, and then we'll 
be up in Memphis, then I'm going back to Florida. We'll have 
additional sessions in New York, Pennsylvania, probably two or 
three other locations.
    The hope is to have that hearing process, what you're 
involved in here today, completed sometime in March, and then 
I've offered to host a pizza, diet Pepsi, I was going to say 
beer, and sit down with the members and look at all the input 
that we've received and try to start drafting and finalizing 
legislation that would be our--a six-year transportation bill. 
So, that's the reason we're here, that's the order that we'll 
follow.
    The committee took up this week that extension of the 
transportation bill, which will be considered by the house, 
tentatively the word I got yesterday afternoon is Wednesday 
afternoon, some of you are interested, because the current 
extension, the sixth extension, it expires on the 4th of March, 
along with a CR. And we're not sure what's going to happen with 
a continuing resolution, if you've watched some of that debate, 
but we have to make certain that transportation is not left 
behind. So that's the reason we're taking it in that order.
    Additionally, I'd just comment that the FAA 
reauthorization, which I helped to draft the last law in 2003 
with Mr. Duncan and others that were there, that expired in 
2007, we've done 17 extensions, and we've not had Federal 
policy law, authorization in place, only 17 extensions of the 
law. Next week, when we return, one of our first orders of 
business, after passing last week the House version of the FAA 
reauthorization, will be to try to get that on the floor as 
soon as possible. The Senate has passed their version, 
conferenced it, and the FAA, 17th extension runs out March 
31st, and it's my fervent prayer that we do not have an 18th 
extension, that we have a four-year bill in place.
    So that's the reason we're here, and let me say also that 
we wouldn't be here if we didn't have one of the leaders of 
this--the new generation of Members of Congress, who obtained--
actually competed for a seat on the Transportation 
Infrastructure Committee, but we're delighted to be here at his 
request. He follows in the footsteps of your Governor who was 
on the committee, and we are just delighted, again, to come 
across the country and listen to folks and their 
recommendations on what we need as far as positive improvements 
in the current Federal law relating to transportation policy.
    The order of business is I'll yield first to Mr. Lankford, 
then I'll yield to Mr. Duncan for opening statements, and then 
we'll get to our panel of participants and witnesses today.
    So with that, thank you, again, for hosting us. Let me 
recognize the gentleman from Oklahoma, Mr. Lankford.
    Mr. Lankford. Thank you. It is a joy to be able to have the 
chairman here and to have the field hearing, to have a chance 
to listen to the ideas that are coming from Oklahoma, we have a 
lot of great ideas. I'm looking forward to sharing these ideas 
and other ideas that will be coming from individuals.
    Let me recognize a couple of people. I know the chairman 
will be recognizing the people on the panel itself, but Dr. 
Paul Secrest is the President of OCCC, and I wanted to get a 
chance to recognize him and say thank you. And Dr. Jerry 
Steward is also the Executive Vice President, thank you so much 
for doing this. I know Gina put in a lot of work, where is she? 
There you are, OK, put in a ton of work to be able to pull this 
together. Thank you for doing that.
    On my own staff, Brittnee Preston is here probably 
somewhere, and worked very hard from the D.C. side as well as 
here, and Mona Taylor and Holly Isch and all the rest of the 
staff that's here in Oklahoma City for our Congressional office 
put in a lot of work on this. Thank you for doing that.
    This is the crossroads of America, as we who live here in 
central Oklahoma understand well, three major highways come 
right through the middle of us. And if there are products and 
goods and services just about anywhere in the southern part of 
the United States, they came through Oklahoma City at some 
point, whether that be by rail or whether that be by water, 
through the Port of Catoosa or whether that be by coming across 
on our highways.
    I'll put out we're also the pipeline crossroads of America. 
We have a lot going on. Today we're talking about surface 
transportation specifically, but this is a major topic for us 
in Oklahoma. We've seen it both in the I-40 and what's 
happening on the crosstown, we've seen it all across our major 
highways and our own bridges, we've gone through a long journey 
on this.
    Oklahoma City has seen quite a resurgence in the past 
fifteen years. And we've seen a revitalization of the city 
itself that we're sitting in, as well as the state and what's 
going on in so many ways.
    So I loved telling the story and getting a chance to say 
come and see what's going on in Oklahoma City and the 
resurgence that we have experienced here, but also get a chance 
to come and hear the ideas. As we have talked about often, 
ideas don't come just from Washington, D.C. They come from 
individuals who live and breathe these issues and these ideas 
and we're looking forward to getting a chance to hear these 
issues and ideas today.
    For others that want to submit thoughts and suggestions, 
they are obviously welcome to be in the conversation. So, thank 
you for coming, for holding this field hearing here and looking 
forward to getting a chance to hear the testimony.
    Mr. Mica. Thank you, Mr. Lankford. And let me turn now to 
the chair of the Highway Subcommittee. We have six 
subcommittees under our full committee, and one of the leaders 
in transportation and also the chair of that important 
subcommittee, who will be helping craft this legislation, the 
gentleman from Tennessee, Mr. Duncan. Mr. Duncan, you are 
recognized.
    Mr. Duncan. Thank you very much, Mr. Chairman, and thank 
you for allowing me to be part of this nationwide tour of these 
hearings and this listening session. This is my 23rd year on 
this committee, and I've served in that time, I was just 
sitting here thinking, under six other chairman, there's never 
been another chairman who has gone as many places as you have 
in such a short time, and I think that's great for the very 
reason that Congressman Lankford just said, that all the ideas, 
in fact, sometimes the worst ideas come from Washington and the 
best ideas come from the local folks right here.
    And I said driving over with your Governor a few minutes 
ago, I think the people of Oklahoma are just almost identical 
or exactly like the people in Tennessee where I'm from. I'm 
from the Knoxville area, which is a very fast growing part of 
our United States. But I had the privilege about three years 
ago of coming with Congressman Jerry Costello, a Democrat from 
Illinois, and Jimmie Fellow, one of our top staff members from 
the Transportation Committee at the request of then your 
Congresswoman, Mary Fallin, and now you're Governor.
    And let me say, first of all, she was a very hard worker in 
the Congress and made a great impression on both Democrats and 
Republicans alike, and I am convinced that she will be an 
outstanding Governor for your state. And Congressman Lankford, 
in his short time in the Congress is getting off, I think, to a 
great start. We're trying to come up with ideas for the highway 
bill. I've had the privilege of chairing the Aviation 
Subcommittee, we have a six-year limit on chairmanships on the 
Republican side, and, I chaired the Aviation Subcommittee for 
six years and chaired the Water Resources and Environment 
Subcommittee for six years, and now have the privilege, thanks 
to Chairman Mica, chairing the Highway and Transit 
Subcommittee.
    We've been told in hearings in all of those subcommittees 
that it takes on average about three times as long to do an 
airport project, a water project, a highway project, and about 
three to four times as much cost to do those types of projects 
as it does in any other developed nation. We've got to change 
that, we've got to speed that up, because common sense would 
tell you, if we can even cut that project delivery time in 
half, that we could do two projects where we have been doing 
one.
    Chairman Mica sometimes gets embarrassed when I say this, 
but we need to get the environmental radicals under control, 
that's the problem in this country, in my opinion. If we don't 
do some more domestic energy production, yesterday USA Today on 
the front page said gas prices are going to go to $5 a gallon. 
That's going to hurt a lot of people if that happens. So we 
need to do some things in this country. We need to not be 
afraid to let our free market, free enterprise system work, and 
we need to kind of get out of the way and let things--let 
things--let progress take place.
    And that's why we're here today, to get your ideas and 
suggestions, and I'm honored to be here with you. Thank you 
very much.
    Mr. Mica. Thank you, Gentlemen. And a little housekeeping 
and ask you now to consent that all of the witnesses' testimony 
be included in the record today, and also for the listening 
sessions that we had in Indianapolis, Chicago, Vancouver, Los 
Angeles was a joint House and Senate hearing, and for today's 
hearing.
    Without objection, so ordered.
    Let me also say at this point, that--and Mr. Lankford will 
move that we keep the record from this hearing open for two 
weeks.
    Mr. Lankford. Yes, so moved.
    Mr. Mica. So moved without objection. Now, we could only 
have a limited number of panelists today. And everyone couldn't 
participate on the panel, otherwise, we would never get done 
with our work. But what I do want to announce is that we will 
keep the record open with the past request by the gentleman 
from Oklahoma. We'll keep the record open for a period of two 
weeks.
    So if you don't get an opportunity to be heard, again, in a 
formal manner today, we invite you to submit, and I would 
prefer through your representative, you can also do that to any 
Member of the Committee, but we will attempt to include all of 
that information, and then we'll use your suggestions as we 
consider it, again, completing the final bill in legislation.
    So, again, that's an open invitation, some folks sometimes 
are reluctant, will try to stay a couple of minutes afterwards 
and heard from a few folks last night on ideas, but we want you 
to know you can have an important role and you can participate 
in this process.
    With that being said, we'll move now to our panel of 
witnesses. We're going to do a little bit different order 
today, because we're honored to have the Governor with us, and 
she has another commitment and then I'm rejoining her on a trek 
across part of Oklahoma, anyway, to Tulsa after this hearing. 
But we are delighted to have our former colleague, Mr. Duncan 
and I, and your friend, Mr. Lankford, the very distinguished 
Governor. I can tell you having known the Governor in her 
former capacity, you couldn't have a more dedicated public 
servant. No one who would be more aggressive on behalf of 
positive outcomes for the state and their former district. 
She's just a tireless, energized individual, 24-7.
    I was just telling Mr. Lankford this morning, the problem 
is she also has my cell phone number. But we are, again, 
delighted to be here at Mr. Lankford's request, but also the 
Governor's request.
    But I will recognize her first, and we're just delighted to 
have you, and thank you for your past friendship and now your 
leadership and also for your hospitality during our visit. 
Welcome, my former colleague and now Governor, and you're 
recognized.

     TESTIMONY OF MARY FALLIN, GOVERNOR, STATE OF OKLAHOMA

    Governor Fallin. Thank you, very much, Mr. Chairman, and 
let me just first of all say, welcome to Oklahoma, it's great 
to have you, Mr. Chairman, here in our great state. It's 
certainly good to see you, Subcommittee Chairman Duncan, and we 
appreciate your second visit to our state to see our 
infrastructure systems. And we're very proud of Congressman 
Lankford and his new service to this committee, and he's 
certainly going to do a great job and he's off to a wonderful 
start, so we are thrilled to have you back in our great state 
for such an important hearing and to be able to meet with our 
local officials.
    You have two cabinet secretaries here, our current 
Secretary of Transportation, our former Secretary of 
Transportation, and other people who are in the industry 
represented in this room. So we are thrilled to have you here 
for this testimony.
    I want to tell you I really appreciate you making the trip 
to Oklahoma, because as you told us last night at our lovely 
reception, you've been to many states on a very fast paced 
track during this time, listening to ideas from across the 
Nation on so many important issues, and I appreciate the time 
you've taken today to let us visit with you about our issues.
    I know you're going to hear about the I-40 crosstown, 
you're going to make a trip later today to see the Inner 
Dispersal loop in Tulsa, so, thank you for taking that time. 
And I know that we're going to be able to make some good 
presentations here today with all of the people who are 
represented.
    Let me just, first of all, say, that I want to brag for a 
few moments about our Secretary of Transportation, Gary Ridley. 
As you might remember, Mr. Chairman, and our colleagues here, 
Secretary Ridley came to Washington many times on behalf of the 
transportation committee to testify on behalf of how important 
it is that we get our transportation plan passed in our Nation, 
and we certainly support your efforts in getting through all 
the extensions and just getting a permanent transportation bill 
passed out of Congress.
    It's not only important for the state of Oklahoma, it's 
important for our state budget, it's important for our people 
who are in the road construction industry and bridge 
construction industry to have some certainty in knowing what 
the budget's going to be and to knowing how much money will be 
available.
    So I want to brag upon our Secretary of Transportation Gary 
Ridley for being what we believed in our transportation 
committee, to be one of the first states in the Nation to have 
shovel ready projects when we had a bill a couple of years ago 
putting more money towards transportation and infrastructure. 
So, thank you, Secretary Ridley, for all of your great work.
    We are here to discuss the urgency of building our Nation's 
transportation infrastructure, as well as the need for our 
state and the Federal Government to work together and 
effectively as partners in this process. Building our road and 
our bridges is essentially to the economic wellbeing of our 
state and our Nation, it represents an important investment in 
the future of our country.
    There was a bipartisan interest in ensuring that goods can 
be moved quickly and efficiently across state lines and 
throughout our country, and that we have safe roads and safe 
bridges with minimum congestion. Mr. Chairman was talking to me 
a little bit about our congestion in Oklahoma City last night. 
It's because we've got a lot of good construction going on. 
We're fixing those roads and bridges in our state.
    Mr. Mica. We ran into all of it.
    Governor Fallin. He gave me a lecture on it last night, and 
I said, well, we're repairing our roads and our bridges as we 
need to be. I know that Chairman Mica and the committee members 
are well-versed on the importance of maintaining and expanding 
our transportation infrastructure. I'd like to real briefly go 
over the economic impact as Governor of our state that it has 
upon Oklahoma's economy.
    According to the U.S. Census, there have been 2,630 
transportation and warehousing establishments that exist in our 
state, and that employs over 64,000 Oklahomans or 3 percent of 
Oklahoma's work force. The total quantity of freight that moves 
across our Interstate and our road systems, moving in and out 
through Oklahoma on all modes of transportation, totals more 
than 945 million tons with a value of $624 million--$624 
billion, Congressman Lankford, in Oklahoma's economy.
    And so transportation infrastructure-related issues are big 
business, it's very important to Oklahoma's economy in moving 
the goods and services in transportation. Over 115 million tons 
of goods are shipped from Oklahoma to states and countries 
beyond our state's borders, and that number is actually 
expected to increase from 155 million tons--to another 155 
million tons by 2035. So I appreciate your mention of our port, 
we have the most inland port in the Nation in our state, too.
    Oklahoma's central location makes it very ideal for a 
location for warehousing and distribution of a diverse array of 
products and services and goods, and so improving our 
transportation infrastructure is a very important step in 
supporting our massive distribution networks, as well as our 
various industries that are in our state.
    Agriculture and livestock production, for example, account 
for a significant portion of Oklahoma's exports, and we stand 
to benefit from improved rail services, and something Secretary 
Ridley and Congressman and I talk about a lot is the need to 
have efficient, effective rail systems in Oklahoma.
    Aerospace is certainly a growing industry in Oklahoma that 
requires not only good airports, but it requires reliable and 
expansive highway and airport networks to solidify our position 
as a state, as a national supplier, even in the military 
defense industry.
    So as you can see, transportation has a huge impact upon 
Oklahoma's economy, on the jobs, on the goods and services that 
come through our Nation and, of course, across our state.
    So as a former Congresswoman on the transportation 
committee and now Governor, it is my great hope that the State 
of Oklahoma can continue to be a partner with U.S. 
Transportation Committee, certainly with Congress, and that we 
can both together seek ways to improve our Nation's 
infrastructure and transportation system.
    The Director Ridley will tell us in a few moments that 
there is a backlog of transportation needs in Oklahoma and it's 
large and it must have a consistent long-term Federal 
investment strategy for our state. And it is my hope that such 
a strategy will include flexible Federal spending, we've talked 
about that many times. We want to be free from Federal unfunded 
mandates or a rigid one size fits all policy for our state. 
Such mandates and regulations can be seen in a couple of 
examples I'd like to share with you.
    While a member of the transportation committee, one of the 
issues that we worked on on behalf of Oklahoma was private farm 
vehicles that come under increased scrutiny from local and 
state law enforcement in regards to Interstate commercial motor 
vehicle standards. And as you're aware, the Federal law allows 
each state to determine their own classification for commercial 
motor vehicles, for trucks with gross vehicle weight ratings of 
less than 26,000 pounds while traveling within our Oklahoma 
borders.
    However, the Federal standards mandates of those trucks 
traveling across state lines with a gross vehicle rate rating 
of more than 10,000 pounds are considered to be commercial 
motor vehicles.
    So the discrepancy between these two standards forces our 
farmers with heavy pickup trucks who cross state lines to 
acquire additional licenses, creates a cumbersome burden upon 
our farmers and our ranchers who sell across state lines to 
support their households and their families. So farmers and 
ranchers in Oklahoma and across the country have been seriously 
inhibited by these regulations that were never intended, I 
think, to apply to them.
    You might remember I wrote a piece of legislation, along 
with Congressman Boren, to address this issue and to make 
changes on the Federal standards for the mandate for commercial 
motor vehicles, and I would certainly continue to urge Congress 
to pass similar legislation to help our rural farmers, not only 
in Oklahoma, but certainly, throughout our Nation.
    Another issue I'd like to visit with you about is the 
National Environmental Policy Act, NEPA, and it offers another 
illustration of burdensome Federal regulations under NEPA 
states are subject to extensive Federal regulations in order to 
make even the most basic improvements to infrastructures within 
transportation right-of-ways.
    In order to repave an existing stretch of roads, states 
should not have to acquire a new right-of-way or undergo a full 
environmental review and be subject to such added expenses. 
These projects within existing corridors should be exempt from 
NEPA regulations so that progress may continue to be made 
without delay.
    Regulations from the Environmental Protection Agency, 
there's another way that we have increasing concern. I'm proud 
to say that under the Clean Air Act, Oklahoma's air quality has 
been in containment for over a decade and continues to improve, 
however, if the EPA continues to impose even more stringent air 
quality targets, after only three years of lowering our 
previous target levels, major areas in Oklahoma's metro will 
risk nonattainment, which would effectively bring a halt to 
continued growth of Oklahoma's economic development centers, 
and that will be unacceptable, especially a time when we are 
trying to recover from a recession.
    The final example I'd like to make is the undue Federal 
regulation that can be seen in Davis Bacon, and I know our 
contractors here will stand by me with this. The state is 
currently divided into four territories with approximately 22 
job classifications. The current system has proven to be fair 
and effective for all parties involved. In fact, there were 
generally never problems with meeting Davis Bacon mandated 
wages because of the market driven wages in Oklahoma are 
frankly just higher.
    However, the U.S. Department of Labor has conducted an 
evaluation of Oklahoma's wages and has now proposed dividing 
Oklahoma into 66 territories with 36 different job 
classifications. And this is problematic, because if a road 
happens to cross a county line, an employee could make a 
certain wage one day in one area, he could cross that county 
line and make a different wage in a different area the next 
day. So Department of Labor has allowed other states that have 
found themselves in the same position to conduct their own 
labor studies in partnership with the contractors, Department 
of Transportation, Department of Labor, and this would allow 
state departments involved with--with contractors to work 
together to serve by payrolls in an appropriate manner, and it 
could be evaluated for a few years, we would ask to ensure that 
fairness.
    So I hope Oklahoma will be able to do the same, rather than 
fall, once again, under the same one size fits all Federal 
regulations. I know our director will talk to you about some of 
our infrastructure needs in other projects, so I'd like to 
conclude these comments now. You have a lot of great people 
here that are going to give some testimony, but once again, 
Chairman Mica, Committee Chairman Duncan, and certainly 
Congressman Lankford and your staff that are visiting here in 
Oklahoma, today, thank you for taking time to listen to the 
ideas that will be presented so we can continue to improve the 
infrastructure in our state.
    And I just want to let you know that we stand with you, 
ready to work with you in helping you pass not only a six-year 
transportation bill, but also to work on the FAA 
reauthorization. That's important to our state. Thank you so 
much and welcome to Oklahoma.
    Mr. Mica. Thank you again, Governor, and thank you for 
being with us. And we're going to take the Governor out of 
order for questions and then we'll go to the remainder of those 
on the panel, because she does have some other commitments, and 
we're just really pleased that you would even take the time 
today to join us with your busy commitment schedule.
    Let me yield first to Mr. Lankford to see if he has any 
questions for the witness.
    Mr. Lankford. I do. Thank you for being here. I know you 
have a busy schedule as well, and I know that you know what 
it's like to be on both sides of this desk, so thanks for 
taking the time to be here.
    Can you spend a little more time talking about the flexible 
Federal mandates and how that would help Oklahoma and just to 
give Oklahoma, I guess, more permission, is what it sounds like 
you're asking for to be able to make a decision locally, rather 
than somebody in Washington D.C. Making those decisions?
    Governor Fallin. Absolutely, Congressman Lankford. You 
know, we believe that we know our needs in our state and our 
funding needs, our priorities as far as what's the most 
important project that needs our attention, what would help in 
the transportation of goods and services across our state. We 
believe that we know where our bridge deficiencies are and 
where the money needs to be spent, and I'm proud to say 
Oklahoma's lowered our bridge deficiency by 30 percent, I read 
in an article in the paper last week, so we've done a good job 
in having an eight-year plan in Oklahoma.
    We fund our plan based upon priorities, based upon needs, 
not based upon politics, which I think is very important. And 
we have a great team of people, a great Department of 
Transportation staff that is leading our state and working with 
our communities. And so we'd like to have more flexibility in 
deciding what our priorities are and we would like to have more 
flexibility in even being able to be process those contracts in 
a more timely way.
    Congressman Duncan mentioned how time delays drive up 
costs. We had a bridge that you might remember that collapsed 
many years ago in Oklahoma, was very effective and efficient in 
bringing that bridge back up through some creative work with--
incentivizing a faster pace in completing that bridge.
    And so we believe there are great solutions in our state, 
and we hope that we can have more flexibility to share those 
ideas. I know that Secretary Ridley and I'm sure Secretary 
McCaleb has testified many times about innovative solutions and 
how--allowing us just to be able to have that flexibility can 
make our dollars go far and be more efficient.
    Mr. Lankford. Perfect. By the way, I do look forward to 
picking up that same piece of legislation that's unfinished on 
the commercial vehicle ratings for agricultural vehicles. It's 
still sitting out there and our staff has been looking at it to 
see if we can finish the job on that, so thanks for getting it 
started and we hope to get it finished, that would be a tag 
team experience to get that thing done.
    Governor Fallin. Thank you, Congressman.
    Mr. Lankford. I yield back.
    Mr. Mica. Mr. Duncan, you're recognized.
    Mr. Duncan. Thank you, Mr. Chairman, I don't know that I 
have any questions. I'll just say that I agree with everything 
the Governor has said in her testimony, you know, there's an 
important national role in these projects, because people in 
Ohio sometimes use the roads in Tennessee and vice versa, and 
people in New York sometimes use the airports in Texas and vice 
versa, and so you can go on and on.
    Interstate 40 runs right through Knoxville as well as here. 
So I appreciate that you're telling us about this Department of 
Labor situation, and that's ridiculous to do that, and--most of 
these delays are environmental delays, so I'm well aware with 
the NEPA situation.
    It's our goal, Chairman Mica, and my goal, to get a six-
year bill, and we'd like to do it this year, but at least 
hopefully do it in this Congress. And I believe we will, they 
tried to do it in the last Congress and didn't come close for 
various reasons.
    But thank you very much, this work needs to be a 
partnership of Federal, state and local. And we don't need the 
Federal people dictating everything, and the mandates you're 
talking about, that's a problem that's been going on for years, 
and we need to work on that as well. But thank you very much 
for your testimony here this morning.
    Governor Fallin. Thank you, Congressman.
    Mr. Mica. Thank you. Just again, you said that two areas 
that do drive your costs up or delay--well, also the NEPA 
process that delays your project, any estimate as to what you 
could do, what kind of money you would save, both in a 
restructuring, realignment of the NEPA process? We've had some 
suggestions, too, for certain levels of exemption, and also 
consolidating some of the process for NEPA.
    And then Davis-Bacon, maybe you have some more specific or 
when we get to Secretary Ridley, maybe he could tell us the 
exact difference in costs that the state incurs because of the 
current Federal regulations.
    Governor Fallin. Absolutely, absolutely. Well, in 
committee, when I was there over the last couple of years, we 
debated Davis-Bacon and prevailing wage many, many times, and 
the added costs it can add upon our construction projects, and 
what we typically find is that the market force is driven, will 
actually set the wages within the market itself and a free 
enterprise, free competitive system itself, and as my testimony 
just said, we pay on the average more than what the prevailing 
wage might be just because of the market itself.
    And certainly, after we went through the stimulus funding 
and the different road projects that we had in our state, I 
think there was some pretty good work that was had out in our 
road contractors and bridge contractors, so, you know, we just 
believe that the market prices are the best way to set our 
pricing and we know, and I think Secretary Ridley can give some 
specifics on this, on costs to his department, but it does 
increase costs on our road projects, and we have a certain 
amount of money that we may let or plan for in our eight-year 
budget and then all of a sudden, the estimates may come in a 
lot higher than that, and that gives us less money to put 
towards our important projects of our state. So I know our 
secretary will be able to give you some more specifics on how 
it impacts his budget, in particular, but we hope that you'll 
just consider that as you look for it in legislation.
    Mr. Mica. I want to thank you for coming out today and 
taking time out of your busy schedule to be with us. We look 
forward to being with you shortly in Tulsa. I might say, too, 
when I was driving in from the airport and I saw all the 
construction underway, I thought, and this is, again, knowing 
your Governor and working with her, and seeing her tenacity on 
different projects, I couldn't help but think that some of that 
construction that was underway was her handiwork, as she never 
stopped in her efforts, again, to try to assist her entire 
state and the Nation with the projects moving forward. So I'm 
sure you had something to do with them.
    Some of the delays that probably will expedite people's 
travel in the future, hopefully we can do more with you in the 
future, I know we will be able to. We appreciate you taking 
time to be with us today.
    Any other questions for the Governor? And we may have some 
that we'll submit, along with additional questions in writing, 
to witnesses. So, at this time, I'll just excuse the Governor, 
and let you----
    Governor Fallin. Thank you so much, Mr. Chairman. Thank 
you, Congressmen.
    Mr. Mica. Thank you. We'll now turn to the panel and thank 
everyone again for coming out today. We're very privileged to 
have the distinguished participants, and among them, an 
individual I've had the opportunity to work with in the past 
and highly respected among the leaders of transportation across 
the Nation, is your director, we call them the Head of 
Transportation for the State of Oklahoma, Mr. Gary Ridley. 
We're pleased to have you, you're recognized.
    And let me say, I know all of you probably have formal 
written statements, and they will be included without objection 
into the record. What I'd like to do for the remainder of the 
time is have you informally give us your recommendations, your 
ideas of what specific things, I think maybe two or three 
things, one, two or three things that we could put in law that 
would make this process work better for you, bring projects in 
faster, lower the costs, financing will be a key, we need ideas 
on creative financing, leveraging and then speeding up the 
process, doing more with less, because, of course, we face an 
incredible financial crisis at the Federal level, as everyone 
knows.
    So with that, Mr. Ridley, you're recognized and again, 
welcome.

TESTIMONY OF GARY RIDLEY, SECRETARY OF TRANSPORTATION, STATE OF 
 OKLAHOMA; NEAL A. McCALEB, PRESIDENT, TRANSPORTATION REVENUES 
 USED STRICTLY FOR TRANSPORTATION (TRUST), INDIAN RESERVATION 
     ROADS (IRR) IN NON-RESERVATION STATES; JAMES A. DUIT, 
 PRESIDENT, DUIT CONSTRUCTION COMPANY, INC., EDMOND, OKLAHOMA; 
  JERRY HIETPAS, PRESIDENT, ACTION SAFETY SUPPLY COMPANY; AND 
   LARRY LEMON, CHAIRMAN, HASKELL LEMON CONSTRUCTION COMPANY

    Mr. Ridley. Thank you, Mr. Chairman, Members of the 
Committee, Congressman Lankford. The Governor said it very 
well. If we're going to look at specific things, and knowing 
full well that it will be difficult, if almost impossible, to 
increase the Federal budget when concerning surface 
transportation, that we have to look at things that will not 
only improve the process, expedite the process, but certainly 
take the bureaucracy out of the things that we do.
    I happen to be a long-term bureaucrat that really hates 
bureaucracy. If there's a way that we can manage that system, 
we think that there are some things that could be done in the 
new highway bill. One of them was brought out, we think could 
be very significant that Governor Fallin mentioned, and that's 
working within existing rights-of-way. As we have to rebuild 
our Interstate system across the country, not only in Oklahoma, 
but across the country, we have existing rights-of-way, and in 
order to rebuild our Interstate system, whether it's rebuilding 
bridges that are currently within those existing rights-of-way 
or replace the roadway section because it has outlived its 
useful life, we ought to be able to do that without the double 
jeopardy of having to go back and reopen an environmental 
document.
    We shouldn't have to go back through the 4-F process, the 
NEPA document, the Corps of Engineers, all of the whistles and 
bells that has to be done by our state and other states just to 
keep things in a state of good repair. Whenever we're able to 
work on the--on the roadways within those existing rights-of-
way, we ought to have the freedom to be able to do that, do it 
quickly and efficiently.
    The bridge that the Governor had made mention that we 
worked on that had been knocked down on Interstate 40 many 
years ago, and the lessons learned from that, we spent almost 
$30 million in 64 days, two hours and 40 minutes that the 
bridge was down. We ought to be able to take those lessons 
learned and put them to use on our routine, regular projects. 
There should be no reason why we can't expedite the process and 
be able to do them quickly.
    We certainly have problems with the Davis-Bacon Act. The 
idea that the Department of Labor wants to make 66 separate 
categories, just thinking about that is a nightmare for the 
state and the cost that that will be able to administer and 
administer fairly, one would have to believe it would be many 
times over what the labor costs would be today.
    The idea of mandates, whether it is the enhancement project 
mandate that's mandated in the statute, safe routes to schools, 
those all may be and probably are worthwhile activities, 
however, the states ought to be permissive to be able to spend 
funds on that.
    Where our Nation's infrastructure is in so critical and 
disrepair, the idea of setting aside monies that would 
rehabilitate old buildings or provide trails, to unnecessarily 
pull money out of us being able to replace bridges.
    The idea that--that the ADA, the American Disabilities Act, 
that forces states to rebuild sidewalks, wheelchair ramps and 
put things in ADA compliance, when all we're doing is simply 
trying to resurface a city street, is really somewhat 
ridiculous.
    If we're going to rebuild the section, then certainly, we 
have to look at how we can improve the accessibility for people 
that need additional help for access, that certainly needs to 
be done. But states, counties, cities, should be able to have 
the ability to be able to do routine maintenance effort on 
their streets and on the highways without having to completely 
rebuild the sidewalks and the other portions of in compliance 
with the ADA Act.
    Mr. Chairman, I'll be glad to answer any questions.
    Mr. Mica. Thank you. What we'll do is withhold all the 
questions until we're finished, now we have another leader in 
transportation here in Oklahoma, Mr. McCaleb, and he's 
president of a TRUST where he could probably tell us what that 
is, and we look forward to your testimony and you're 
recognized.
    Mr. McCaleb. Thank you, Mr. Chairman, and good morning to 
you and Members of the Committee. TRUST stands for 
Transportation Revenues Used Strictly for Transportation.
    Mr. Lankford. Could I ask you could you pull the 
microphone? Thank you.
    Mr. McCaleb. TRUST stands for Transportation Revenues Used 
Strictly for Transportation and we are, as the name implies, a 
highway advocacy group, for the use of revenues raised from 
road users. I'm going to make a point this morning, and welcome 
to you to Oklahoma, also. Oklahoma, by the way, is a Choctaw 
word, which means land of the red man. And Oklahoma is unique 
in that we have 39 federally recognized tribes and that our 
state is the second most populous state in Native Americans in 
the United States. That is significant in my testimony because 
I want to talk about the Indian Reservation Roads program. The 
name sort of implies it's restricted to reservation states, 
which Oklahoma is not. We have no surface reservations in 
Oklahoma, notwithstanding the large populations that I just 
mentioned.
    So my remarks this morning will be threefold. One, the 
justification, the justifiable application of the program to 
nonreservation tribes, not only in Oklahoma, but across the 
United States.
    Secondly, the efficacy of the use of these funds to empower 
Indian tribes and local government officials in the development 
and improvement of roads serve not only Native Americans, but 
the population at large.
    And thirdly, the threat that we have to the current status 
of the application of these funds and the formulas that are 
applied by administrative fiat, and I'll explain that a little 
bit later.
    My comments are going to focus on Oklahoma, my personal 
perspective through my service at ODOT and the U.S. Department 
of Interior, Bureau of Indian Affairs. The IRR, and I'll use 
the letters, instead of going through the words every time, 
program was intended to enhance the opportunities and safety of 
Native Americans throughout America, providing for their safety 
and also access to economic opportunities. Although the title 
indicates it's for reservations, the law specifically says it's 
for nonreservation tribal areas within the boundaries, the 
historic boundaries of those tribes, and specifically 
identifies Oklahoma in some of the past legislation.
    There are more Native Americans living off reservation in 
the United States than there are on reservations. So for this 
bill to serve its intent, it needs to be applied as intended. 
And pursuant to that objective, the provisions of SAFETEA-LU 
require that there would be established a mechanism to get 
tribal input to establish what the rules and regulations and 
formulas were to be in the allocations of these funds that were 
authorized and ultimately appropriated by Congress.
    That was establishing a group called negotiated rulemaking 
process, and it involved tribes from all over the Nation that 
were nominated that came together. They were to determine what 
these formulas, what these regulations and eligibility were. It 
took a long time, over four years to get the tribes together.
    But finally, they reached a consensus and developed a 
workable program for those allocations and eligibility 
requirements. That was accomplished in 2004, as published by 
the Department of Interior in the Federal Register, it became 
an adopted regulation.
    Unfortunately, since that has happened, there has been a 
movement by administrative forces within the Federal Highway 
Administration, Federal lands area, and the Bureau of Indian 
Affairs to change those formulas and rules in direct conflict 
with the intent of Congress.
    The application, now, how effective have these funds been, 
in Oklahoma, they've been tremendously effective. One of our 
underfunded elements of government is the role of government in 
county roles in particular. We have 14,882 structurally 
deficient or obsolete, functionally obsolete bridges. We happen 
to be the second highest in the Nation for that dubious honor.
    We're making progress on that, but it's going to be eroded 
by the fact that if these rules are changed, notwithstanding 
Congressional intent, they are doing it under the presentation 
that it's a clarification and not a rule change, but it 
operates to change the allocation of the formula.
    My request is that the committee include language in the 
reauthorization bill to instruct all effective parties to 
respect the provisions of the negotiated rulemaking committee 
until it is changed by the appropriate mechanism representing 
all tribes.
    Thank you so much. I'll answer questions at the appropriate 
time.
    Mr. Mica. Thank you, and we'll get into some questions. Now 
we've got Mr. Jim Duit, President of Duit Construction. 
Welcome, sir, and you're recognized.
    Mr. Duit. Thank you, Mr. Chairman, and distinguished 
guests. I'm pleased to be here to report on, perhaps, three 
strategic ways that we can improve the surface transportation 
issue. The first one is a system that is already in place, and 
it's been in place in the SAFETEA-LU and the TEA-21 program, 
and it is a collaborative effort for research and development 
on technological advancements in the highway paving industry.
    And I was fortunate enough in my career to work on several 
of these advancements, but the one that's most important to our 
industry is a pavement research overlay system, where we put 
concrete pavement over the old system, the old pavement 
systems. And this is, again, developed collaboratively with 
many academia and Federal highway and whatever.
    It has been a tremendous--a tremendous value and an 
extremely high leverage asset. For example, on an Interstate 
highway system, by using this overlay system, we can save 
approximately $800,000 a center line mile. And it's very 
significant and it's been used here in Oklahoma for many, many 
years, been very successful.
    So I ask that you, perhaps, keep the provisions of the--the 
research and development. That is only one small example, there 
are hundreds of them, all industries participated in it, and it 
has a great success story and a great leverage of the U.S. 
Taxpayers' money.
    Streamlining project delivery systems. We need to look at, 
again, as you said, the must-haves versus the nice to have in 
our programs. One of the aspects that come to mind in our 
highway industry is the architectural designs that are 
beautiful and on our roadways and our retaining walls and on 
our bridges, but they come at a large cost to the taxpayer. 
Perhaps this isn't the time that we continue that. I think we 
can develop and design these architectural designs to be 
applied at a later date when the economy might be better.
    I think that would be--it would work out just fine, but 
some of these designs have as much as a 20 percent cost to add 
these to the projects. And obviously it will help streamline, 
shorten the project duration.
    Partnering. One of the--in my career, one of the biggest 
things that I've noticed with DOT's that have great success, 
I've been in this business 43 years, is the ability to partner 
with the DOT's, and work out our problems. In some states, 
however, it's not that easy. Oklahoma, for example, has had for 
years, under the direct leadership of Gary Ridley, a quality 
initiative task force.
    And it's for all the divisions, it's the bridge division, 
asphalt paving, concrete paving division, where we come 
together with all the stakeholders and we talk about the issues 
and design changes and adding new technology, so we can talk 
about the pros and cons together, and we can come out with a 
decision that that leverages our taxpayers' money, has been 
extremely successful, something that could be used in other 
states to leverage the taxpayers' money.
    One issue under the new design processes where we're 
entering into a computer aid design, it would be nice if we 
could get the engineering design files so we can take the 
geometric designs and put them directly onto our GPS equipment, 
and we can actually go out and build the roads probably a 
little more cost effectively.
    Utility relocation is also another issue that we have that 
costs time and money, and perhaps there can be a more efficient 
way of relocating it, utilities, or perhaps put those 
particular utility locations in the contract to help streamline 
the process.
    One other issue we need to look at in our highways, and our 
DOT's are doing very well at looking forward, looking at life 
cycle costs of our pavements and bridges. One thing the 
Europeans do very well is they have a long-term look at their 
pavements and their bridges, instead of a 20- or 30-year 
design, they are looking at a 40- or 50-year design.
    And technology has shown us that we can actually start 
predicting these life cycle costs with some of the new 
technology that is available. We need to look at these on a--
instead of a cradle to grave concept, maybe a cradle to cradle. 
In other words, what materials we put in our roadways and 
bridges now, make sure they are recyclable and reused in the 
future, and make sure whatever we put into those roadways can 
allow for the next generation to recycle.
    Mr. Chairman, that concludes my comments, thank you for the 
time.
    Mr. Mica. Thank you, we'll get back for questions. Mr. 
Jerry Hietpas, welcome and you are recognized. You are 
President of Action Safety Supply Company. Thank you.
    Mr. Hietpas. Thank you, Mr. Chairman, honored members of 
the panel. It is certainly an honor to be able to visit with 
you today, and, of course, a great responsibility as well. As I 
chatted with you and other members last night, I came to 
realize how very similar we are. The gentlemen that are seated 
to either side of me, when I go to visit their offices, one of 
the first things that you'll note is the awards for quality of 
construction that are hanging on their wall. It's some of the 
most prominent features. That's what the industry is driven by 
is a desire to do quality work.
    I was visiting with a former chairman of the Oklahoma 
legislature that was talking about a funding bill that he had 
written over five years ago that is still as a matter of law 
today and it continues to fund Oklahoma's roads. He was talking 
about that with a lot of pride in his voice, because it was 
something of a quality piece that he's done. And after visiting 
with you and listening to the great pains that you're going 
through in order to write a quality bill, I recognize that you, 
like us, are driven more about quality than about just getting 
another piece of work done and off the table so you can move on 
to something else. It--it's really a privilege to be able to 
connect with you on that level, and to be able to be a part of 
the team that's helping you write this legislation.
    Some of the things that--by the time it gets to my level, 
we're in the road construction and traffic control services 
business, and when it gets to my level, all the red tape has 
basically been cut, the rules and regulations are in place and 
all we have to do is comply.
    Do we know what kind of impact it has on us or what could 
happen if the process was streamlined? For 36 years, we've done 
it this way, we don't have a clue how much better it can be. 
What we do know is that changing things like the wage rules and 
breaking it off into these smaller pieces would cost us one 
whole heck of a lot of money. We do know that programs with 
words like safe routes to schools sound absolutely wonderful on 
the outside, but I have been involved in some of these projects 
in part of the road construction work that we've done, and I've 
witnessed putting in--the cost to put in the measures in some 
of these towns where there isn't two kids riding a bike or 
walking to school because of the logistics. But because of the 
fact that it was a Federal mandate project, one size fits all, 
the thing has to be in place.
    We have struggled with the disadvantaged business program 
and the process that the Department of Transportation has to go 
through in order to put that into the--into the--into the 
method. The ADA requirements that Secretary Ridley visited with 
a little bit about, and our Governor, that when we go through 
just to simply maintain a roadway, we have to now, if we spend 
too much money in maintaining, to do an asphalt overlay in a 
particular project, we have to go through and upgrade all of 
these intersections with wheelchair ramps, even though just 
immediately adjacent to that is a vacant field, there aren't 
sidewalks in these little towns anywhere near.
    So it becomes a one size fits all solution, which is really 
easy to write on one end, but it costs so much money on the 
other end. So I encourage you just to continue to do what you 
can to make this more of a user friendly bill, rather than just 
a highway user bill.
    And on the last perspective, I know we don't want to have 
to pay any more money or have any more things charged against 
us in order to fund our roads and our bridges. But we don't 
have any kind of a problem if we choose to go see a movie, to 
pay the ticket and then walk inside the theater and enjoy the 
experience. That's a user fee.
    What we need to do is seriously take a look at user fees 
being associated with the funding of our highway program, be 
it--right now it's gasoline and diesel fuel taxes, but we've 
got a lot of vehicles coming up, the electric vehicles and 
those kinds of things that are going to be riding on the exact 
same roads and contributing to the exact same kind of 
congestion that you were visiting about earlier. We have to be 
able to find a way to get a reasonable user fee from those 
vehicles as well, so that they can enjoy the same benefits that 
we do.
    I thank you for your time today.
    Mr. Mica. Thank you for your testimony. And we'll turn now 
to Mr. Larry Lemon, he's Chairman of the Board of Haskell Lemon 
Construction. Thank you, sir.
    Mr. Lemon. Thank you, Mr. Chairman. My name is Larry Lemon, 
I'm chairman of Haskell Lemon Construction Company. We are a 
three generation, family-owned paving business and we've 
specialized in building roads and highways here in the state of 
Oklahoma for over 60 years. I really want to thank Chairman 
Mica and Congressman Duncan and Congressman Lankford for coming 
today and having these field hearings, thank you for being in 
our state.
    I also come before you today not only as a practitioner for 
highways and roads, but this past year, I had the honor to 
serve as chairman of the National Asphalt Pavement Association 
and we're also members of the Associated General Contractors. 
The two main concerns I would like to raise the awareness of 
today is the unpredictability of funding that is making it 
extremely difficult for our State Transportation Department and 
our construction companies to prepare for this construction 
season, and also the diversion of monies from the Highway Trust 
Fund for nonhighway uses.
    With the Federal program currently operating under a series 
of short-term extensions, the government funding reductions in 
the maintenance and construction of highways has a very 
uncertain impact on both our state DOT and on our construction 
companies, and that is uncertainty for our employees.
    We support the priority Congress and the American people 
have identified in reducing the national debt and balancing our 
Federal budget. This also means aligning the spending of the 
Highway Trust Fund with the revenues going into the trust fund. 
I hope that you will draft a reauthorization bill based on our 
current revenues going in the trust fund, and as part of that 
legislative process, consider proposals to consolidate the 
trust fund programs.
    Our programs now are fractured into so many different 
programs, that, really, we don't have enough money to fund the 
core issues of what the highway system is really needed. We 
need to reestablish this core purpose and fund only those 
activities related to our highways and bridges. When President 
Eisenhower proposed our great highway system, he proposed a 
user fee of three cents a gallon on gasoline and diesel for all 
the construction and maintenance. The user fee is a good 
concept and it's worked well for our American citizens. Today 
the user fee is 18.3 cents on our gallon of gasoline, which 
really has not kept up with inflation, and the purchasing power 
of our Highway Trust Fund is substantially diminished.
    It's interesting to note that in 1955 at the time of this 
new three cent user fee, the cost of a stamp was also three 
cents and now the cost of a stamp is 44 cents. What a 
difference our Highway Trust Fund would be in if it could have 
been given the same priority as our postage system. The vehicle 
user fee concept continues to be a very effective way to pay 
for our highway needs and keep them in the first-class 
condition. We suggest that this transportation bill have a 
comparable user fee for electric vehicles, for natural gas 
vehicles, hybrid, really any and all alternative fuel vehicles, 
because each vehicle needs to have a uniformed user fee and 
that will enhance our Highway Trust Fund and allow us to build 
more and better roads.
    With the Highway Trust Fund receiving a full user fee from 
each vehicle, we'll build more roads and pay for them out of 
the trust fund. Mr. Chairman, we recognize the current 
condition of our infrastructure, we absolutely must include all 
vehicles, maximize the effectiveness and priorities of the 
Highway Trust Fund. American needs to grow and modernize its 
highway system. Our Nation's standard of living and our 
security depend on it. The construction industry of Oklahoma 
pledges to help you meet your metrics of doing more with less.
    Thank you very much.
    Mr. Mica. Thank you and thank all of our witnesses. And now 
we'll turn to questions and I'll turn to and recognize Mr. 
Lankford first.
    Mr. Lankford. Thank you. Thank you all for coming and 
preparing your statements. We have an extensive written 
statement you've also submitted on that and I appreciate that 
with a lot of other details on it.
    Gary Ridley, can you tell us a little bit more about what 
we learned from the Webbers Falls bridge incident and 
rebuilding that in 64 days? Give us a guideline here. That was 
redone in 64 days, take all the changes and exemptions that 
were given during that time period, what would a bridge like 
that typically mean as far as time to rebuild it?
    Mr. Ridley. Mr. Chairman, if you are looking at a bridge 
that's some 526 foot long, an Interstate bridge, from the time 
that you would conceive that you would have to replace it until 
the time the actual construction was completed, given all the 
problems associated with the NEPA documents and everything that 
would go with that, assuming you would stay on existing right-
of-ways, that bridge was done on a state existing right-of-way, 
and the bridge that would cost with detour, somewhere around 
$30 million, one would imagine that would be probably a three, 
maybe four-year process at best.
    Mr. Lankford. So we took a three-year process and did it in 
64 days.
    Mr. Ridley. Uh-huh.
    Mr. Lankford. What were the things that you would say these 
are lessons learned from that, here's how we contracted all the 
time and the permissions and exemptions we were given to get it 
done, can you give us a couple of examples?
    Mr. Ridley. Congressman, government can do some good things 
if government gets out of the way and allows its private sector 
to do their business. We were allowed to turn loose the 
innovativeness of not only our staff, but also the private 
sector in order to rebuild that bridge. Things were done 
simultaneously, rather than going end to end.
    When the head of the Federal Highway Administration came 
here, Senator Inhofe as well, then Lieutenant Governor Fallin 
said, ``Build it, build it quickly'', and just turned us loose 
and we did. Again, I think that the gentlemen at the far end of 
the table know how to do their job, certainly our staff knows 
how to do theirs, but we can do it quickly, again, if 
government can stay out of the way.
    Mr. Lankford. Those are things that can be documented and 
say, here are ideas, we'd very much like to have those ideas in 
writing, say, here are three or four things we've learned on 
that and we'd like to be able to present those on and continue 
moving, because obviously you lose money as you lose time on 
all of these, if we can accelerate the process, then it saves 
us a lot of money as well.
    Obviously, people aren't wading around barrels in 
construction, coming in from out of town to try to figure out 
where our construction lies, because we can get it done and get 
it turned around.
    We have something very unique in Oklahoma, we have an 
eight-year plan, that's already been referenced as well. That 
is a great piece of legislation that was done in 2005. Talk to 
us a little bit about and catch the Chairman up some on this 
eight-year plan and how we function as a state and do our 
organization and planning.
    Mr. Ridley. Mr. Chairman, if I may, the eight-year plan is 
put together, and it's financially constraint. I know the 
Congress is wrestling with how much money we will have toward 
the end of this fiscal year. Yet we estimate what our dollars 
will be for the next six, seven, eight years, both at the 
Federal level and at the state level. We take a very 
conservative approach on what those revenues will be.
    We also look at our critical needs, these are not 
politically motivated projects. We do not look at any political 
subdivision to make determinations as to what projects we will 
do. They are all totally based on critical need.
    My office, for two months out of the year, looks like a war 
room in that we look at all the data, it is data driven. The 
eight-year plan has forced us to sit down and work on those 
critical projects, we rely on good estimates, we reevaluate 
that once a year. We deliver on those projects. About 80, 85 
percent of the projects are delivered in the year we say we're 
going to do them in. Again, we take the political process out 
of there, therefore, it doesn't change as members might change 
or whether in the House or Senate or even in the Governor's 
office.
    Governor Fallin has been extremely supportive of that, and 
she has been associated with that for the last ten years and it 
has worked very well. Again, we are able to deliver on the 
things we say we're going to do when we say we're going to do 
them.
    Mr. Lankford. That's terrific. Mr. Duit, I want to ask you 
a specific question on it as well. And that is, you and I have 
talked about before about things and you had mentioned to me 
offhand one day that we seem to try to save a few dollars now 
and it costs us a lot more later. Can you emphasize some of 
those things or give us specific examples you've experienced as 
a company.
    Mr. Duit. Well, I can, and this happened again when money 
from the Federal Government was very scarce. It was about 20 
years ago and we were invited or we bid an eight-mile section 
of pavement in the Oklahoma area, and there was an alternate 
bid in that section, which allowed for some additional 
reinforcing steel to be placed in that concrete pavement.
    That alternate bid or add to that bid would have been 
approximately $500,000 for those eight miles of pavement. 
Fifteen years after the project was done--and it was elected 
not to do that, the alternate.
    And fifteen years after that was done, there was a contract 
let for $4.7 million to put steel back into that pavement, and 
retrofit that pavement. And my concern is, when money gets 
tight that we have to get from point A to point B, some of 
these accessories are left out.
    Now, I will say, also, that in the last fifteen years we 
have not done any paving without that. There was technology at 
that time that suggested that might be--might be able to work, 
it didn't. It not only happened in Oklahoma, it happened in 
every state of the union, it happened in Europe, it happened 
all over. So, again, when money's tight, we need to make sure 
we spend it on the functional products.
    Mr. Lankford. Sure. Do either of you gentlemen have 
examples like that as far as decisions that are made and how 
the bidding process goes out in trying to save money now 
actually costs us a lot more later.
    Mr. Lemon. I think that building a pavement that will last 
for future generations is a wise value of our money, and both 
the asphalt and the concrete pavement industry has terms called 
perpetual pavement and permanent pavement.
    And if we will build the structure right one time, it's a 
great benefit to the next generation of engineers and 
contractors and our citizens that the surface can be renewed in 
offpeak times into the future, and this is real value for the 
taxpayer.
    Mr. Hietpas. I also have an example that ties on to that in 
a very small way. My company does the pavement markings and as 
you have driven some of the Interstates as you headed here, you 
saw the black and white stripes out on the Interstate system.
    These are indicative of a multi polymer pavement marking, 
which was tested in Oklahoma almost 11 years ago now, on a 
section of I-44 between I-40 and the 39th Street Expressway. 
Had one of the highest ADT's of over 265,000 vehicles per day. 
And that pavement marking material was installed and remained 
in place and serviceable over those entire ten years. It was 
just very recently replaced. And, of course, now you see it all 
over the place.
    What the state has been forced to take a look at is do they 
spend a little bit more money and invest in a pavement marking 
that will last ten years under those kind of conditions or are 
they forced with replacing pavement markings that are missing 
or completely functionally obsolete because of the snow removal 
seasons and that kind of stuff. So they are torn between 
spending a little bit more money and getting a really durable 
product or stretching those dollars using a less durable 
product and covering all the places where the pavement markings 
are missing. So that's one of the things they run into, and 
with the kind of--with the kind of money we could get, we could 
make those improvements one time and last for a long time.
    Mr. Lankford. Two more quick questions, if that's OK. One 
is to both of the former lead people in transportation in our 
state and that is dealing with truck weights, there's a lot of 
conversation now about truck weights and how to handle that, 
obviously they do a lot more damage to pavement as they travel.
    There's some conversation about adding additional axle to 
increase the weight of the truck, that would reduce the number 
of trucks on the road, but increases the actual weight and 
distributes it on another axle. Just give me your perspective 
on that.
    Mr. Ridley. If we're talking about the truck weights on the 
Interstate system where we have an 80,000 pound GPW, the 
Interstate pavement, as well as the bridges, were designed for 
that 80,000 pound load. As you know, the truck weights have 
increased over time. The axle loads that you have on a truck 
contribute to the detriment mainly on the pavement itself, 
pavements are designed based on axle loads.
    Bridges are designed, for the most part, for the weight of 
the vehicle itself. So the span bridges that--if you increase 
the truck weights on span bridges, I would imagine that that 
will decrease the life of those bridges, simply because of the 
life that's in the steel, for sure, of the fatigue life that's 
in the steel beams in how they were originally designed. I 
think that we need to be very cautious about increasing the 
truck weights on the Interstate in excess of where they are at 
today.
    I think that there needs to be a lot of good dialogue first 
before someone will pull the trigger on that. Certainly, it may 
reduce the number of trucks, but it also may increase the 
damage, certainly on our bridges.
    Mr. Lankford. OK. Thank you.
    Mr. McCaleb. I agree with Secretary Ridley. I just make one 
further explanation. You know, if you increase the number of 
axles and keep the axle weights the same, theoretically, you're 
not increasing the stress in the particular area, and you can 
do that with triples and long combination vehicles and a number 
of other ways. You cannot reduce the increased stress on bridge 
beams, as Secretary Ridley said, because that's a function of 
the bending moment and the stress at the critical point in the 
middle of the span, no matter how many axles you put under that 
essential point loading will increase the stress repetition and 
the rate of stress repetition and will reduce the life of the 
bridge.
    Mr. Lankford. So is it better to have, say, one truck with 
additional axles or to do one truck that is actually doubled 
up, if they are carrying, you know, a double vehicle is going 
to carry more weight than a single with an additional axle, 
which one--I mean, it's a guess, we're going to have to look at 
it through engineering, but give me just your perspective on 
that.
    Mr. McCaleb. On the pavement section, the longer vehicle, I 
think, is more desirable. On the bridges, I don't think it 
makes a lot of difference. I'm an advocate of heavier loads, 
but you have to design for those heavier loads. You can't just 
superimpose those heavier loads on a system that was designed--
wasn't designed for them.
    Mr. Lankford. Perspective the same on that, Mr. Ridley.
    Mr. Ridley. Yes, sir.
    Mr. Lankford. One last question on this. Mr. McCaleb, talk 
to us a little bit more, give you an additional moment on this, 
in dealing with the--all the different tribes and investing on 
what they do into Indian country in so many ways. Obviously 
that is not an Interstate, typically, but sometimes it's access 
to an Interstate, a lot of us work with county leadership into 
Indian country areas. What impact does that have on the change 
and form that's Oklahoma specific.
    Mr. McCaleb. Thank you, Congressman. It has a tremendous 
impact on what's proposed. Most of the Indian Reservation Roads 
that are on the transportation inventory plan, TIP, are rural 
roads, because that's where the majority of the population is, 
and that's where the need is with the counties, because they 
are underfunded.
    A lot of counties earlier couldn't utilize their dedicated 
off system bridge money because they didn't have the 20 percent 
local match. The tribes came and provided that 20 percent local 
match with IRR funds, and that accrued to the safety and the 
benefit of population at large, as well as the Native Americans 
living in the area. That's one example.
    And one of the things that this proposed for change or 
clarification, as they say, would do, would restrict the use of 
those funds and eligibility for county collector rolls, which 
is where the traffic is.
    Mr. Lankford. OK. Thank you very much.
    Mr. Mica. Very good questions. You helped two senior 
members have a sort of an enlightened side bar discussion on 
this weight issue, which you two shed some interesting points. 
Thank you so much.
    Mr. Duncan, I'll recognize you.
    Mr. Duncan. Well, thank you, Mr. Chairman. I'll be very 
brief, and Congressman Lankford did ask a really key question 
about the increased truck weights, because I've had two groups 
come and visit me just in the last couple of weeks to their 
request of increases. And I think that's going to be a really 
key question in our legislation, and it's good to hear your 
testimony. In fact, I appreciate the testimony of all the 
witnesses, if I had to sum it up or summarize it, I would say 
it just boils down to common sense. We've had a very common 
sense panel here.
    But we talked about the fast bridge projects. It seems 
these groups that impose all of these highway projects won't 
oppose these bridge collapses because they know that the public 
would just be outraged about that. But we had--just last week 
we had the administrator of the Federal Highway Administration 
testify that the average highway project now takes 13 years 
from conception to completion, and actually he's fairly new on 
the job and there was a fairly recent study from his own 
agency, which said 15 years.
    And the example I used a lot of times when I chaired the 
aviation subcommittee, they told us at a hearing one time that 
the newest runway at the Atlanta Airport, which is several 
years old now, but it took 14 years from conception to 
completion, it took only 99 construction days, and they were so 
relieved to get all the--all the delays, practically, were 
environmental.
    And they finally were so relieved to get all of those 
approvals, they did 24 hour construction days and built it in 
33 days. I mean, that's amazing, what's going on. But I 
appreciate, Secretary Ridley, your statement that you were--
you're a bureaucrat that's frustrated by bureaucratic delays, 
and it is frustrating to a lot of the good people in Congress.
    We sometimes talk about incentives and penalties for 
private companies, and I think there is an important place for 
incentives--incentive payments when work is done quicker and so 
forth and penalties for delays. Maybe we should try to figure 
out some way to incentivize and penalize these bureaucracies, 
especially the Federal bureaucracies when they delay a project 
for a long time. And maybe try to limit in some respects the 
groups that could file these lawsuits that tie things up, 
because that's a problem, too. Sometimes these delays are tied 
up in the courts.
    I think, Mr. Duit, you made a good suggestion to delay some 
of these architectural frills and so forth, because that does 
make some sense. We all hope the economy is going to improve.
    And I appreciated the testimony about the electric 
vehicles, because if we're going to have more and more and more 
of those, we're going to have to find a way that they need to 
pay their share as well, too.
    I'm a very conservative Republican, but I also am an 
American first conservative, and I think we've got to stop 
these endless, I think, unnecessary foreign wars and stop 
spending hundreds of billions to rebuild Iraq and Afghanistan 
and all these other countries and start rebuilding some things 
in this country.
    And anyway, but I do appreciate the work that you all are 
doing, and it's a--it's very, very important to this country. 
And not only is it important to us economically, but it saves 
lives. I mean, when we can take a two lane highway that is a 
death trap, I can give you a lot of examples, and turn it into 
a four lane, maybe with a center turn lane, you save lives.
    And when you delay these projects and make them 13 years 
when they could do them in three or four years, you're really--
you're really killing people. I mean, you're causing lives to 
be lost that shouldn't be lost. And so I'm willing--I'm willing 
to do good things for the environment and I don't want to pave 
over all the green areas, I don't want to do that. But we need 
a good highway system in this country and we need to keep it in 
good repair as well.
    But I thank you for your testimony, you've been a very 
helpful panel.
    Mr. Mica. Thank you, Mr. Duncan. And let me just to direct 
a couple of questions here first to Mr. Ridley. You were 
talking about using existing rights-of-way, and I've been a 
strong advocate of that, in fact, ordered some studies to see 
what we can do when we built the Interstates years ago. We had 
the luxury of wide swaths of land, and we have some extra 
safety lanes and measures, and valuable access, sometimes 
right-of-way that can be utilized.
    One of the things--your statements was to not go back to 
further NEPA review when you made improvements. Now, one of the 
issues that you have, and your testimony made me think about 
this. I'm a strong advocate, too, of condensing or not going 
back to NEPA where you don't have to. But if we take, say, some 
of that right-of-way and we actually increase the amount of 
traffic on that, that does have some environmental 
implications.
    When the original design of NEPA was done, and I don't know 
this and maybe staff can help me, too, is the traffic count 
calculated for just the construction or for future 
construction, and utilization of additional capacity? Do you 
understand what I mean? And if we don't, maybe we should 
require that so we're not coming back and doing--reinventing 
the wheel the second time. Maybe you could enlighten us on that 
point.
    Mr. Ridley. Mr. Chairman, you're absolutely right. Today 
when we clear a corridor, because a process takes so long, we 
will clear that corridor, if we know that fifteen, twenty years 
from now, that we may have to add capacity over and above what 
we're doing today, we would clear the corridor for a more 
multi-lane facility, even though we may not build it.
    Mr. Mica. So in your current plans and review and 
environmental, you are actually submitting a document and 
statement that would indicate a capacity beyond what you're 
building for, is that current law or requirement.
    Let me ask counsel, Mr. Tymon.
    Again, the current law requires that they submit for 
approval under NEPA the absolute potential utilization of----
    Mr. Tymon. There is a projection timeframe for the NEPA 
analysis. I don't believe it exceeds twenty years, though.
    Mr. Mica. So that's what you're submitting and it's being 
reviewed.
    Mr. Ridley. That's correct, Mr. Chairman, an example might 
be, you have a narrow, two-lane road that you were speaking of 
earlier with no shoulders, poor horizontal, vertical sight 
distance, you know at some point in time you're going to have 
to make that a multi-lane facility, but you would certainly 
like to make the improvements to that two lane now, put 
shoulders on it, improve sight distance, satisfy clear zone 
requirements so that an errant vehicle could gain recovery if 
they lost a vehicle.
    Mr. Mica. Well, let me give you a specific, like in central 
Florida, we had an inside safety lane and a barrier and then we 
had the outside safety lane, and then two traffic lanes and 
duplicated in both directions, and we convinced them to take 
the inside safety lane and convert it to a passenger lane, it 
increased our capacity by, what, 25, 30 percent, and with it, 
and it was very cost effective.
    So we increased our capacity, we eliminated that inside 
lane, which we found--and I also found driving in here that the 
inside lane doesn't do much good, because there was an accident 
and it was all messed up anyways. But, again, I want to have--I 
want to see if we need to adjust the law to give you the right 
of using every inch of usable space, you know, you just can't 
continue to pave over Florida and Oklahoma and every state. And 
we just came from California, and I asked one of the aids, I 
said, help me count the lanes, because we got to eight on one 
side and then there were some coming in from one side, so they 
had maybe 20 lanes going in. And they didn't have an inch of 
safety right-of-way left in that.
    Well, the other thing, too, if you would review, please, 
the current law and how it might need to be modified to achieve 
what you're talking about, because what we want to do is make 
certain that we--nobody wants to roll over the environment. We 
want to make certain that any negative impact is accounted for 
and considered. So that is one of my questions.
    The other question on NEPA, again, I think we seem to be 
going back to that process, is, you were able to condense some 
of the timeframe, and do some things concurrently, rather than 
consecutively. Now, if we made that sort of the law of the land 
for all projects, and specifically where could we--where do you 
think we could save some time? You're very familiar with the 
process.
    Mr. Ridley. Well, certainly, as we start the NEPA process 
on adding additional right-of-way, needing additional right-of-
way, you could certainly do things at the same time, if allowed 
to by the Federal Highway Administration. But the real key is, 
I think, for the future, is that we are not going to be 
acquiring new rights-of-way in the future. I think the 
alignments that we have across the country, certainly, the ones 
in Oklahoma, will--for the most part, will stay in existing 
alignment, we'll probably use the existing right-of-way in most 
cases, and I think if the focus of the new legislation would 
allow us to be able to rebuild that system without having to go 
through that NEPA process.
    And let me just give a short example. If we decide to go 
out and resurface, just resurface an Interstate section, we 
have to go through the complete NEPA process if we're using 
complete Federal funds before we'll get approval from Federal 
Highway just to resurface, which if we put new guardrail on 
bridges, you have to go through the NEPA process in order to be 
able to do that, which, certainly, we could all agree----
    Mr. Mica. That there could be elimination of a whole host 
of activities that should not--that you would recommend not be 
subject to recasting.
    Mr. Ridley. Certainly, as you described a minute ago, when 
you increase capacity, you may have to look at some things, 
certainly by notice abatement or other things. But one good 
thing that we could all agree if you are not at your capacity, 
if you're just keeping things in a state of good repair----
    Mr. Mica. In the same footprint.
    Mr. Ridley. Exactly, sir.
    Mr. Mica. Now, this might be a little controversial, I hope 
I don't get in too much trouble here, I did hear a lot of 
public private partnerships, most of those are raised on 
private firms coming in and operating either some of the toll 
roads that Mr. Daniels, Governor Daniels put the 150 miles of 
the state's toll up for lease and received, I think, about $3.8 
billion, which he's reinvested into various projects. We heard 
about that in Indiana when we were there.
    I'd like to get your take on that. I'm pretty hardnosed on 
not tolling the existing capacity of the Interstate, and maybe 
I should ask these in reverse, this deals with right-of-way 
first, very hardnosed about that, because I think then you just 
end up with a series of toll roads and destroy the free 
Interstate that I had hoped that we would always have access 
to.
    But we do have existing right-of-way and sometimes we don't 
have the money, the folks here were talking about the 
challenges we face there, and Mr. Duit was talking about saving 
money and recycling and things of that sort. What is your take 
on some sort of toll or fee in the additional right-of-way, and 
leaving the existing capacity free on the--on your Interstate? 
Sorry, Ridley, that I did that to you, but----
    Mr. Ridley. Public-private partnerships come in a lot of 
forms. Oklahoma has some 600 miles of toll roads, which are a 
public private partnership, bond--people that buy the bonds are 
private entities or private individuals.
    Mr. Mica. But they are not--they haven't been turned over 
to a lessee, that's state operated, all of the----
    Mr. Ridley. That's correct. But it is somewhat a quasi 
public, again, it comes in several different forms, from the 
private investors actually operating the toll facility and 
determining what the charges will be on those toll roads in 
order to get a return on their investment. So it can come in a 
lot of different forms in the public private partnerships.
    If I understand what you're asking on additional capacity 
on existing Interstates where you add additional lanes, is 
there a possibility of having those lanes possibly tolled in 
order to pay for those lanes and that expansion. I think that 
that needs to be a tool in a toolbox of states. States ought to 
have the ability and the right to be able to do that, if 
necessary. Certainly, we're going to have to deal with freight 
movements across this country.
    At some point in time, there needs to be a hard look at 
having freight corridors or freight lanes that would allow the 
free movement of the trucking industry, to be able to 
transverse the country and provide goods.
    Mr. Mica. So basically you're not opposed and you wouldn't 
oppose if we take some of the right-of-way, and, again, I'm 
pretty hardnosed on the existing capacity. But that's your take 
on that.
    Now, let's go to the second part of the question, which I 
had asked first was on the NEPA. Again, speeding up that 
timeline.
    Mr. Ridley. I think that, again, if you can put in 
legislation that would free the process up on existing right-
of-way, you shouldn't have to go through the same procedures on 
existing right-of-way that you do on new alignment and new 
right-of-way. It will force our engineers to develop plans that 
we use existing right-of-way.
    Mr. Mica. Now, but when you did the project that you 
described for Mr. Lankford, he asked you about how--you did 
things concurrently, rather than consecutively, which is--is 
not the normal procedure, and you're saying we could make that 
the normal procedure.
    Mr. Ridley. That's correct, sir, the Minnesota bridge class 
is another kind of----
    Mr. Mica. I've often used that, yeah.
    Mr. Ridley. It----
    Mr. Mica. 437 days, your example was even more dramatic, 
and I never mentioned the fire power of Senator Inhofe and he 
is actually the leader, the Republican leader of the committee 
of jurisdiction in the Senate, and I had extensive discussions, 
conversations with him already and already about my being here, 
and he has an aid here, I met. Where is his aid? Stand up and 
introduce yourself, what's your name.
    Mr. Herrgott. Alex Herrgott, professional staff for Senator 
Inhofe.
    Mr. Mica. He agreed with me, I mean, I didn't even have my 
foot on the ground. But Senator Inhofe is our go-to guy in the 
Senate and he will have a great deal of say, he's already begun 
discussions trying--as I'm trying to work with Senator Boxer, 
who is the chair of that. He's the Republican leader of the 
U.S. Senate on that issue. So he actually, I'm sure, was very 
helpful in that 34th or whatever the number of limited days 
process. And so we're hoping, also, to gain, you know, his--his 
assistance. And I have to have it to move forward, period.
    Anything else then that you want to raise before the 
committee?
    Mr. Ridley. I certainly think that we really appreciate 
what you're trying to do and really streamlining the process 
and not just say it, but really do it. And I can't tell you how 
much we appreciate the committee's willingness to look at--
looking at things a little bit differently than we have in the 
past. We've had this process in place since 1969, certainly, we 
ought to be able to do better.
    Mr. Mica. Mr. McCaleb, what about the idea of turning some 
of these--you used to head up the Turnpike Authority. What 
about turning some of these operations over to private entities 
for operation.
    Mr. McCaleb. Well, I'm reluctant to do that because you 
lose control of the pricing.
    Mr. Mica. If you could put--I mean, you have to write a 
good contract, and you have to have some terms, if you could 
get a handle on that, would you be more likely.
    Mr. McCaleb. Yes, structuring the agreement where price 
increases met certain criteria.
    Mr. Mica. There is a manner in which it could be done. What 
about just getting--well, I guess the states have the right to 
do that anyway, but in our jurisdiction it's pretty much 
limited to the Interstate, which we had that discussion. I 
can't--we can't force and I wouldn't force the states to do 
anything, but so many states come to me and ask me for millions 
and billions and a lot of them--you have 600 miles of Turnpike?
    Mr. McCaleb. Over 600 miles.
    Mr. Mica. Just a suggestion on--I may not be invited back 
after a suggestion.
    Mr. McCaleb. I would say, notwithstanding your reservations 
about putting tolling on existing Interstate, that the states 
might consider giving the states the authority to toll the 
Interstates in certain areas and that becomes kind of a----
    Mr. Mica. Again, you have your opinion on the Turnpike and 
turning that over, I have my opinion on not tolling the 
existing capacity, which will prevail, by the way.
    Mr. McCaleb. Yes, sir.
    Mr. Mica. But, again, it's not ask what your Federal 
Government can do for you. Let's all see what this states and 
other entities again. Thank you again. And, Mr. Duit, savings 
and you talked about recycling. Now, would you mandate some of 
your recommendations in law or how could we do some of the 
things you're talking about, without, you know, that the heavy 
hand of the Federal Government. Incentivize?
    Mr. Duit. It could be incentivize.
    Mr. Mica. Everybody wants the green, they like the green 
they have. The green, the--you can't appreciate this, Mr. 
Lankford, agreeing to all of it, the tableware at the--in the 
cafeteria in the House office building, they green the whole 
thing, add a half a million dollars in cost and the spoons 
melt. It's sort of a joke, the payoff was like in three 
generations out. But again, how do we do what you're talking 
about.
    Mr. Duit. Well, I had the opportunity twice to go to Europe 
with the Federal Highway on a scan tower in 1992 and again in 
2006. And that was one of the things we really looked at over 
there. Austria, for example, mandates every Interstate highway 
that 100--100 percent of the product needs to be recycled 
somewhere back in that highway. Now, from a cost standpoint in 
areas where we're close to natural aggregates, it's not cost 
effective, but it's becoming more and more cost effective as 
we're developing more equipment, more machines to do this 
efficiently.
    So I guess the answer is, it would certainly be, if you 
could certainly encourage it, rather than take up the old 
highway and put it in some rancher's field, certainly, it can 
be used back in the highway in some form.
    Mr. Mica. How much of yours is done, Ridley, in recycling 
in the state of Oklahoma.
    Mr. Ridley. Quite a bit, Mr. Chairman, we recycle quite a 
bit, not only of our asphalt pavements, but also our concrete 
pavements. Mr. Duit is working on a project on Interstate 40 
over in the eastern part of the state where he's recycling the 
concrete pavement.
    Mr. Mica. Mr. Lemon, you wanted to comment.
    Mr. Lemon. Mr. Chairman, I think you could help from the 
Federal standpoint to encourage the implementation of new 
technology to the construction industry and the private 
community is developing new products and new specifications, 
and if the FHWA and the state DOT's were allowed to accept them 
more rapidly as proven technology, this gets cost savings and 
speeds up the construction with the new methods.
    Mr. Mica. Good suggestion. And we have several--we support 
a number of research projects and designates some 
transportation institutes, to some of their findings and all, 
it seems like they end up on the shelf or the technology, and 
new approaches are not readily adaptability or acceptable.
    Any other comments from any other panelist, anything you 
felt that we--that you would like to contribute as far as, 
again, specific recommendations you want to see in the law, out 
of the law, considered? Mr. Lemon?
    Mr. Lemon. I would like to just follow up on Congressman 
Duncan's common sense for environmental rules. The construction 
industry supports the environment and we want to leave the 
place better for the next generation than we have it. And we're 
not at odds, we can have both. We can build high production, 
high quality, award winning projects and we can manage the 
water and manage the air and manage the environment while we do 
it. I think the key word is common sense, and together we can 
move forward.
    Mr. Mica. I think that's a very positive note. Let me see 
if Mr. Lankford, first, has any final questions.
    Mr. Lankford. I'd like to make a final comment, if I could.
    Mr. Mica. Well, we'll save your final for the final word of 
the committee hearing. Mr. Duncan.
    Mr. Duncan. No, I will say this, Senator Inhofe is a former 
member of our committee in the House and he is really helpful. 
I was with him about three weeks ago in a small group and he's 
really good on these. I don't have any problems about private 
companies getting involved in these highways and so forth like 
in Indiana, but I do have this concern that we don't want to 
let some Governor or mayor get all of this big, huge money on 
the front end and then a company go under 15 or 20 or 25 years 
from now, and then the taxpayers are left holding the bag, so 
to speak.
    Mr. Mica. Good point.
    Mr. Duncan. So those precautions need to be built into 
whatever agreements are made. But that's all I have.
    Mr. Mica. Excellent point. Well, let me just say before I 
yield to close to Mr. Lankford, we do appreciate your coming 
out today, your testimony. If you come up with any other ideas 
or as we proceed, you see we're going down the wrong path, I'd 
sure like to know about it.
    We intend to move in an expedited fashion and finish these 
series of hearings and listening sessions across the country. 
And then at least from the House side, as I said, my intent is 
to try to get a bill, beginning drafting by the end of March 
and something on the floor in late April. I have to consult 
with the leadership before I get to put anything before the 
entire House, but we are willing to work at any point, and the 
best ideas, as Mr. Duncan said, usually come from outside 
Washington.
    And I think Mr. Lankford is refreshing in his--again, not 
being part of the--Mr. Duncan and I together have been there, 
what, almost, I don't know, a good part of 40-some years, if 
you add it up, but the new ideas are what we need, new 
approaches, and then building a consensus and moving forward.
    And you're fortunate to have a Governor, great partner and 
very knowledgeable and very aggressive, and Mr. Inhofe is 
perfectly placed, and now to have Mr. Lankford on the 
committee, you've got a triple hitter, and you're in very good 
position to help us draft this legislation. So without--let me 
yield for any closing statements, Mr. Lankford.
    Mr. Lankford. Thank you.
    Mr. Mica. And thank you again for hosting us today.
    Mr. Lankford. Thank you. It's an honor that everybody can 
get a chance to come and be able to hear what's going on. I 
think you've heard the priorities and what we're talking about 
and that is we don't have additional dollars. It's well known 
and well stated, and turn on the TV any particular day, there 
are not extra Federal dollars that are laying around.
    We've got to find ways to be more efficient with both the 
time that's required on construction and the dollars. If there 
are places where the Federal structure, we're making it more 
expensive and take longer, we need to correct those things and 
get that out of the way.
    I'd like to get more miles out of the dollars that we have, 
rather than continue to add additional Federal regulations, get 
fewer and fewer miles, and so we are dependent on more dollars 
that are not there.
    So hopefully some of the ideas that you have submitted 
today can help us get towards that, simple things to give more 
states more flexibility in changing words in the Federal law 
from ``must'' to ``may'' to a state would make a dramatic 
difference, and saying to a state, if you choose to do this, 
that's terrific, but you're not required to do this, so you 
look at your bridges and see if they are falling apart first 
before you are required to be able to put a piece of art on 
another bridge to make it more beautiful when this one is about 
to fall apart.
    So shifting some of those priorities, giving more state 
control to that would be a terrific asset, and hopefully, we'll 
be able to integrate that as well.
    And I really am honored that you all took the time, it was 
a significant amount of time to be able to write up a written 
statement, give a chunk of your day here to be able to be a 
part of this. I think you exemplify very well the Oklahoma 
attitude, which is, we don't complain about problems, we fix 
problems. So you all did not come with complaints, you came 
with solutions, and I appreciate that a great deal, and 
hopefully we can integrate these things into it and you 
represent our state extremely well. And honored, Gentlemen, 
with that yield back.
    Mr. Mica. Thank you, Gentlemen, and, again, thank everyone 
for participating. And as I did announce, we have a unanimous 
consent agreement to leave the record open for a period of two 
weeks, that's fine with you, and that motion passed, and that 
will give you an opportunity to submit through your 
representative here today, and also Mr. Inhofe's suggestions, 
recommendations, but to be part of this hearing again, we ask 
that you go through one of our committee members or Mr. 
Lankford.
    There being no further business before the House Committee 
on Transportation and Infrastructure, this committee meeting is 
adjourned.
    Thank you.
    [Whereupon, the committee was adjourned.]

</pre></body></html>
